         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       National Environmental Policy
       and Quadrennial Review Needed
       Report No. 10-P-0140         


       June 8, 2010

Report Contributors:                              Patrick Gilbride
                                                  Erin Barnes-Weaver
                                                  Alicia Mariscal




Abbreviations

CEQ           Council on Environmental Quality
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
NAPA          National Academy of Public Administration
NEPA          National Environmental Policy Act
OIG           Office of Inspector General
OPEI          Office of Policy, Economics, and Innovation




Cover Photos: Diverse settings that may be affected by a national environmental policy.
              (EPA photos)
                       U.S. Environmental Protection Agency 	                                             10-P-0140
                                                                                                        June 8, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review           National Environmental Policy and
This report updates our Fiscal   Quadrennial Review Needed
Year 2009 management
challenge on how the U.S.         What We Found
Environmental Protection
Agency (EPA) uses threat and     The environmental protection structure created by the National Environmental
risk information in              Policy Act 40 years ago has not resulted in a comprehensive approach. In
decisionmaking. We               addition, new, complex environmental problems such as global climate change,
researched the need for a        regional water scarcity, and long-range transport of pollutants in air or water
national environmental policy    require more concerted, coordinated efforts.
to leverage resources for
environmental protection         EPA shares responsibility for environmental protection with States and 25 federal
across government and            agencies, resulting in a fragmented approach to environmental protection. For
stakeholder groups.              example, EPA and the U.S. Department of Energy both issued ENERGY STAR
                                 criteria documents for the same products, which could cause confusion in the
Background                       marketplace.

Congress passed the National     EPA lacks authority over many activities that impact the nation’s environment.
Environmental Policy Act and     For example, housing financed, controlled, underwritten, or owned by four other
created EPA in 1970 to carry     federal government entities represents a significant number of homes that could be
out national policy. EPA’s       built radon resistant. The U.S. Department of Agriculture could use its extensive
success in protecting the        field experience with local farming communities to further contribute to EPA’s
environment depends on the       Chesapeake Bay clean-up efforts.
efforts of other federal
agencies and States. In some     Past and current Agency efforts, such as the Proposed Environmental Goals for
cases, EPA partners with other   America with Milestones for 2005 (1995), did not set national policy or clearly
entities to accomplish           align the environmental protection efforts of all federal and State stakeholders.
environmental goals and, in      The National Strategy for Homeland Security and the U.S. Department of
other cases, stakeholders have   Homeland Security Quadrennial Homeland Security Review are an example of a
more authority than EPA over     nationwide framework to solve a large, complex problem. Australia and Japan
activities that impact           offer international examples of how to incorporate a national policy approach into
environmental quality.           environmental protection legislation and activities.

For further information,         EPA should work with Congress and the Administration to examine ways to
contact our Office of            leverage resources expended to various, insular environmental protection efforts.
Congressional, Public Affairs    The Administration should propose to Congress that it create expert panels to
and Management at                consider formulating a national environmental policy and subsequent quadrennial
(202) 566-2391.
                                 review. Congress could also consider passing legislation recommended by these
To view the full report,         panels to harmonize various efforts and, where appropriate, to maintain existing
click on the following link:     requirements in environmental statutes. These efforts could help address the
www.epa.gov/oig/reports/2010/    Administrator’s priority to expand the conversation on environmentalism and
20100608-10-P-0140.pdf.
                                 build strong State and tribal partnerships.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           June 8, 2010

MEMORANDUM

SUBJECT:	              National Environmental Policy and Quadrennial Review Needed
                       Report No. 10-P-0140


FROM:	                 Bill A. Roderick
                       Acting Inspector General

TO:	                   Lisa P. Jackson
                       Administrator


This is our report on the subject research conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). While we commend EPA for its many successes,
this special report contains observations related to your priorities to expand the conversation on
environmentalism and build strong State and tribal partnerships. Specifically, this report
suggests that EPA work with Congress and the Administration to create expert panels that
consider formulating a national environmental policy and quadrennial review. This report
represents our opinion and not necessarily the final EPA position. EPA managers will make
final determinations on matters in this report in accordance with established audit resolution
procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $205,000.

Action Required

Though comments are not necessary, if you decide to provide us with an action plan in response
to the observations in this report, please do so within 90 calendar days. We have no objections to
the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0847
or roderick.bill@epa.gov; or Patrick Gilbride, Director for Audit, Risk and Program Performance
Issues, at (303) 312-6969 or gilbride.patrick@epa.gov.
National Environmental Policy and                                                                                            10-P-0140
Quadrennial Review Needed




                                   Table of Contents 


Chapters 

   1     Introduction ........................................................................................................      1         


                 Purpose .......................................................................................................    1             

                 Background .................................................................................................       1             

                 Scope and Methodology..............................................................................                6             


   2     National Environmental Policy Needed............................................................                           7         


                 New Environmental Challenges ..................................................................                    7             

                 Fragmented Efforts......................................................................................           8             

                 Past EPA Efforts Did Not Include Setting National Policy ...........................                              10 

                 The Need to Coordinate Across Different Levels of Government ...............                                      12 

                 Others Have Utilized National Policy Approaches.......................................                            18 

                 Challenges to Implementing a National Policy ............................................                         22 

                 Conclusion...................................................................................................     23             

                 Agency Comments and OIG Evaluation......................................................                          23 


   Status of Recommendations and Potential Monetary Benefits..............................                                         25     




Appendices 

   A     EPA Organizational Phases ..............................................................................                  26     


   B     References ..........................................................................................................     28     


   C     Agency Response to Draft Report....................................................................                       31     


   D     Distribution .........................................................................................................    35     

                                                                                                 10-P-0140




                                           Chapter 1

                                           Introduction
Purpose
                   The Reports Consolidation Act of 2000 requires that the Office of Inspector
                   General (OIG) annually identify Agency management challenges. On April 28,
                   2009, we issued a memorandum listing Fiscal Year (FY) 2009 management
                   challenges for the U.S. Environmental Protection Agency (EPA).1 One challenge
                   urged EPA to apply threat and risk assessment methodologies in Agency priority
                   setting and decisionmaking. In August 2009, we met with EPA officials to
                   discuss updating the threat and risk assessments challenge for FY 2010. Based on
                   that discussion, we reviewed and revised the FY 2009 challenge and conducted
                   additional research on the need for a national environmental policy and a
                   quadrennial review.

Background

                   National Environmental Policy Act

                   Four decades ago, Congress passed the National Environmental Policy Act
                   (NEPA):2

                           To declare a national policy which will encourage productive and
                           enjoyable harmony between man and his environment; to promote efforts
                           which will prevent or eliminate damage to the environment and biosphere
                           and stimulate the health and welfare of man; to enrich the understanding
                           of the ecological systems and natural resources important to the Nation;
                           and to establish a Council on Environmental Quality.

                   The Act declared the “continuing policy of the Federal Government, in
                   cooperation with State and local governments, and other concerned public and
                   private organizations, to use all practicable means and measures . . . to create and
                   maintain conditions under which man and nature can exist in productive
                   harmony.” The Act further required federal agencies to develop environmental
                   impact statements for major federal actions significantly affecting the quality of
                   the human environment. The Act “makes available to States, counties,
                   municipalities, institutions, and individuals, advice and information useful in
                   restoring, maintaining, and enhancing the quality of the environment.” The Act
                   created in the Executive Office of the President a Council on Environmental

1
    The memorandum is at http://www.epa.gov/oig/reports/2009/FiscalYear2009MgmtChallenges.pdf.
2
    The President signed NEPA into law on January 1, 1970.


                                                       1

                                                                                                         10-P-0140


                  Quality (CEQ), charged with formulating and recommending national policies to
                  promote improved environmental quality.

                  EPA from 1970 to 1990

                  The President’s Advisory Council on Executive Organization, chaired by Roy L.
                  Ash (the Ash Council),3 addressed how to implement NEPA’s vision. Before
                  EPA was created in 1970, more than a dozen federal agencies had environmental
                  responsibilities, resulting in the lack of an organized, concerted focus to address
                  pollution and degradation caused by prior years of neglect. The Ash Council
                  recognized that setting and enforcing environmental standards must be performed
                  outside the affected agencies. Although reluctant to establish another government
                  agency, President Nixon accepted the Ash Council proposal and outlined the
                  structure of a new administrative agency that would carry out national
                  environmental policy.

                  Reorganization Plan No. 3 of 1970 created EPA and transferred to it programs
                  housed in 15 units of several existing federal departments and independent
                  agencies. EPA assumed programs related to air quality, water quality, solid
                  waste, pesticides, and radiation formerly based at the U.S. Department of Health,
                  Education, and Welfare; U.S. Department of the Interior; Atomic Energy
                  Commission; U.S. Department of Agriculture; and Federal Radiation Council.4
                  The creation of EPA consolidated separate federal efforts and served as the first
                  step in addressing national environmental policy.

                  William Ruckelshaus, EPA’s first Administrator, designed the organizational
                  structure of the Agency in three phases with the ultimate goal of organizing along
                  functional lines.5 Phase 1 created five program offices along the environmental
                  media lines of water, air, pesticides, radiation, and solid waste. By April 1971,
                  phase 2 consolidated these offices into two new entities led by assistant
                  administrators. The Office of Media Programs incorporated the water and air
                  programs. The Office of Categorical Programs subsumed the pesticides,
                  radiation, and solid waste management offices. At the time, 10 regional offices
                  mirrored the organization of EPA Headquarters. The Agency never implemented
                  the third phase, which would have eliminated the media-oriented program offices
3
  Appointed on April 5, 1969, the Ash Council undertook “a thorough review of the organization of the Executive
Branch of Government” and included federal organization for environmental protection as one of its target areas.
4
  The initial functions transferred to EPA 40 years ago no longer exist at other departments, but, as we describe
elsewhere in this report, other federal agencies currently do coordinate with EPA on certain activities.
5
  Among the several different possible organizational approaches, Ruckelshaus considered the ideas of Alain
Enthoven, a Defense Department organization analyst. Enthoven suggested a mission-based approach that would
have been a radical departure from traditional, media-oriented pollution control. Enthoven believed that by
structuring EPA around functional objectives such as criteria setting, research and development, and enforcement,
the Agency could best achieve its mission with centralized efficiency. Douglas Costle, who worked with the Ash
Council and was EPA Administrator from 1977 to 1981, recognized the merits of Enthoven’s approach but also
understood that existing statutes imposed complex restrictions to integration and centralization. Ruckelshaus drew
heavily on Costle’s advice and settled on a tripartite reorganization strategy designed to make EPA more efficient by
consolidating and streamlining functions.


                                                         2

                                                                         10-P-0140


and restructured EPA along completely functional, mission-based lines, such as
criteria setting and enforcement. (See Appendix A for flowcharts of EPA’s
different organizational phases.) Ruckelshaus did not implement the third phase
because the changes required to implement a purely mission-based approach
would have impeded the quick and effective performance of the Agency’s broad
public mandate.

The Ash Council rejected the idea of organizing EPA along media lines due to
concerns that program offices would consider environmental problems as
individual, self-contained issues rather than in the integrated manner in which
they occur (for example, thinking of land pollution as separate or isolated from
water pollution, instead of considering pollution as having an affect on both land
and water). Instead, the Ash Council believed that EPA should be designed
around its major functions – monitoring, research, standards-setting, enforcement,
and assistance.

Dennis C. Williams, author of The Guardian: EPA’s Formative Years, 1970-
1973, explains that due to the “heat of the pollution enforcement battle, neither
Ruckelshaus nor his successors had the time, resources, or even the inclination to
restructure the agency along completely functional lines.” As the years passed
and new environmental legislation or changing national priorities modified the
Agency’s focus, EPA’s organizational structure continued to evolve, but never
beyond the confines of phase 2. Williams pointed out that, in hindsight, never
implementing the third phase “doomed the Agency to periodically rehashing the
unsolvable” mission-based versus media-specific “organizational question in its
efforts to accomplish its broad mission effectively and efficiently.”

A 2002 National Academy of Public Administration (NAPA) case study on the
Ash Council noted that establishing EPA proved difficult because its
Administrator had no clear authority, or an ‘organic’ act, with which to integrate
various statutorily separate programs. When environmental issues first engaged
the public interest, the national approach was geared toward remediating specific,
identified problems. When the public perceived an environmental or public
health threat as posing a serious risk, widespread concern led to the passage of
legislation designed to reduce the threat. In EPA’s first decade, Congress passed
the following legislation:

   •	   Clean Air Act – 1970
   •	   Federal Water Pollution Control Act (Clean Water Act) – 1972
   •	   Endangered Species Act – 1973
   •	   Safe Drinking Water Act – 1974
   •	   Resource Conservation and Recovery Act – 1976
   •	   Toxic Substances Control Act – 1976
   •	   Comprehensive Environmental Response, Compensation, and Liability
        Act – 1980



                                 3

                                                                          10-P-0140


In his book The New Environmental Regulation, Daniel J. Fiorino noted, “In the
space of just over ten years, Congress had enacted a comprehensive, if
fragmented, statutory framework for pollution control.” He also noted:

       The accomplishments of 1970-1981 make it one of the more productive
       decades for any single area of domestic policy in recent U.S. history.
       Within this period the United States built the legal and institutional
       infrastructure for environmental regulation. It enacted a formidable array
       of laws, established a national regulatory agency, created a
       comprehensive system of regulation, and put major sectors of U.S.
       industry to the task of reducing and cleaning up pollution.

However, Fiorino also noted that while “environmental legislation flowed from
Congress in a steady stream,” each statute dealt with a small piece of the overall
picture. The United States lacked an approach that addressed environmental
problems comprehensively.

Ruckelshaus returned as EPA Administrator in 1983 and sparked a decade of
innovative efforts. Ruckelshaus and his successors sought to not just innovate
within the terms of “old” regulation, but to plant the seeds of innovative
approaches in four areas:

   1.	 Defining the environmental problem as more than just pollution control.
   2.	 Expanding the use of consensus-based processes, such as regulatory 

       negotiation. 

   3.	 Developing new policy tools to complement regulation.
   4.	 Working to integrate across environmental media and policy sectors, such
       as agriculture and energy.

EPA from 1990 to Present

By the 1990s, the pollution prevention movement was in full bloom and EPA
began examining ways to integrate analyses and strategies by contaminant (such as
lead), geographic area or affected resource (such as groundwater), and industry
(such as auto manufacturing). Protecting the environment was no longer seen as a
narrow matter of instituting technical controls on pollution or reconciling tradeoffs
among economic and environmental goals; it was viewed as a fundamental aspect
of social, human, and economic development.

Despite this awareness, environmental regulation changed only at the margins from
1993 to 2001. Notable proposals for second-generation environmental legislation
that would have authorized the Agency to try innovative approaches were not
enacted. As a result, separate laws for each environmental medium continue to
define EPA’s responsibilities, and EPA’s internal design, with separate offices for
each medium, reflects this fragmentation. EPA has created some cross-media
functional offices, including the Office of Enforcement and Compliance Assurance



                                 4

                                                                           10-P-0140


and Office of Research and Development (see Appendix A for EPA’s current
structure). Regional offices are not organized alike and do not necessarily mirror
Headquarters mostly media-structured organization.

Since its creation, EPA has established and enforced environmental standards
through its part functional, part media-specific organizational structure. In 1997,
NAPA reported in Resolving the Paradox of Environmental Protection: An
Agenda for Congress, EPA & the States that EPA has suffered since its inception
from its structure and conflicting goals:

       EPA’s authorizing statutes have encouraged the Agency and its partners
       to manage complex problems as if they were neatly partitioned into
       discrete air, water, and waste-management problems. There is no
       statutory definition of a general mission for the Agency and no established
       criteria to set priorities that cut across statutory lines. EPA also lacks
       formal mechanisms to enable it to choose among different statutory
       requirements. Moreover, the program offices that implement them
       function with considerable autonomy and sometimes dramatic indifference
       to each other.

NAPA’s 1997 report also noted that “EPA has tried numerous strategies in the
last few years to overcome some of the challenges of fragmentation created by its
patchwork of authorizing statutes.” NAPA recommended that EPA create a
“reorganization plan that would break down the walls between the Agency’s
major ‘media’ program offices for air, water, waste, and toxic substances.”

Fiorino noted in 2006 that the division of environmental laws, programs, and
agencies along media-specific lines tends to fragment regulatory strategies,
leading to missed opportunities. In a recent interview, Ruckelshaus commented
on how, in hindsight, he would have structured the Agency differently: “I would
have paid more attention to the integrating issues and not organized along strictly
media lines. I would have preferred to not be forced to manage the environment
under the pillars of air, water, etc.”

Ruckelshaus’s original mission – to clean up America – seemed clear. However,
according to Ruckelshaus, “ . . . most Americans did not foresee that actions
designed to clean the natural environment and protect public health would alter
the economy, foreign policy, race relations, personal freedom, and many other
areas of public life.” He continued, “Each of us must begin to realize our own
relationship to the environment. Each of us must begin to measure the impact of
our own decisions and actions on the quality of air, water, and soil of this nation.”
Many of these same challenges still face us almost 40 years later.




                                  5

                                                                                                        10-P-0140


Scope and Methodology
                 We performed our research from August 31, 2009, through February 24, 2010, in
                 accordance with generally accepted government auditing standards. Those
                 standards require that we plan and perform the review to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and
                 conclusions based on our review objectives.6 We believe that the evidence
                 obtained provides a reasonable basis for our findings and conclusions based on
                 our review objectives.

                 To learn about the development of EPA’s organizational structure, we interviewed
                 former EPA Administrator William Ruckelshaus and reviewed EPA history,
                 articles, and oral histories from previous EPA Administrators. To obtain an
                 understanding of EPA’s strategic thinking in the areas of ecology, sustainability,
                 and future planning, and to discuss the need for and feasibility of a national policy
                 and quadrennial review, we interviewed former EPA Deputy Administrator Marcus
                 Peacock and EPA staff and managers from the Office of Research and
                 Development and Office of the Chief Financial Officer (responsible for strategic
                 planning). We interviewed the project lead for the U.S. Department of Homeland
                 Security’s Quadrennial Homeland Security Review to obtain information about the
                 department’s review process and the National Strategy for Homeland Security. We
                 also interviewed a New York Law School project leader who helped organize an
                 effort that enlisted over 40 environmental law experts to address the legal and
                 institutional question of how government should organize itself to protect the
                 environment.

                 To determine whether EPA had developed a national policy, we reviewed and
                 analyzed past EPA efforts to identify and address national goals, including EPA
                 strategic planning and environmental indicator documents. We reviewed external
                 reports from environmental law scholars, NAPA, and the National Research
                 Council that discussed EPA’s organizational structure, goals, and the need for a
                 national policy. We also reviewed relevant prior reports issued by our office
                 (including a past effort by our office to identify environmental goals shared by
                 federal agencies) and the U.S. Government Accountability Office. A reference
                 list is provided in Appendix B.

                 We sought to determine what challenges exist in implementing a national strategy
                 and subsequent review. We also considered which agencies, groups, and
                 stakeholders would play key roles in a national strategy and subsequent reviews.


6
  We used our review objectives as questions to guide our research. Those questions were (1) is there a need for a
national environmental strategy (similar to the national homeland security strategy prepared by the U.S. Department
of Homeland Security) and subsequent periodic review of such a strategy (similar to the Quadrennial Homeland
Security Review); (2) what management challenges exist in implementing a national strategy and subsequent
review; and (3) what agencies/groups/stakeholders would play key roles in a national strategy and subsequent
review.


                                                         6

                                                                                                          10-P-0140




                                            Chapter 2

                 National Environmental Policy Needed
                  The environmental protection structure created by NEPA 40 years ago has not
                  resulted in a comprehensive approach. Rigid environmental laws make it difficult
                  for the Agency to adequately address new, complex environmental challenges.
                  The approach to environmental protection is fragmented: environmental laws
                  often focus on a single media or threat, and EPA goals and offices implement
                  separate legislative mandates. EPA also lacks complete authority or control over
                  many activities that impact our nation’s environment. Past EPA efforts have not
                  set national policy that integrates activities of other stakeholders. EPA’s Strategic
                  Plan identifies 25 federal agencies that contribute to EPA’s goals and notes that
                  States conduct much of the day-to-day work in air and water programs. Other
                  federal agencies and countries offer examples of how to integrate efforts across all
                  levels of government to solve large, complex problems. EPA should work with
                  stakeholders to develop and implement a nationwide policy and quadrennial
                  review for environmental protection to better leverage resources and achieve
                  comprehensive environmental protection.

New Environmental Challenges
                  Since 1990, EPA shifted from controlling pollution to preventing it.7 However,
                  the Agency has never had complete regulatory authority or control over many
                  activities that impact the condition of our nation’s environment, such as land use
                  and transportation planning. In 1990, the year of EPA’s 20th anniversary, EPA
                  Administrator William Reilly noted that contemporary environmental problems
                  “are the result of diffuse, difficult-to-control sources of pollution. They are not
                  obvious or visible or corrected by simple enforcement actions against a spewing
                  smokestack or a recalcitrant industry.”

                  Indeed, the nature of environmental problems is changing. In 1997, the National
                  Research Council recognized that problems such as global climate change,
                  stratospheric ozone depletion, the loss of biological diversity, long-range transport
                  of pollutants in air or water, global pressures on ocean resources, and regional
                  water scarcity are broader, more complex environmental problems than those that
                  received major attention several decades ago. For example, EPA has recently
                  made attempts to solve complex environmental challenges in large coastal

7
  According to Alan Hecht, EPA’s Director for Sustainable Development, “The Pollution Prevention Act of 1990
established the policy that pollution should be prevented or reduced at the source, that pollution which cannot be
prevented should be recycled, and that disposal or other releases of pollutants into the environment should be only a
last resort. EPA has also encouraged additional pollution prevention practices, such as protecting resource bases
through conservation, reducing waste generation, and increasing efficiency in using energy, water, and other natural
resources.” Hecht, “Sustainability at the U.S. Environmental Protection Agency: 1970–2020.”


                                                          7

                                                                                                    10-P-0140


                    freshwater and marine ecosystems, including addressing hypoxia in the Gulf of
                    Mexico, nutrient pollution in the Chesapeake Bay, and contaminated sediments in
                    the Great Lakes.8 Nevertheless, environmental law scholars have noted that rigid
                    environmental laws do not allow EPA to confront emerging, cross-media, and
                    cross-boundary challenges.

                                                                             While addressing these complex
                                                                             environmental issues, EPA
                                                                             continually works to improve
                                                                             internal coordination among its
                                                                             program offices and external
                                                                             coordination with federal and
                                                                             State agencies with which it
                                                                             shares environmental protection
                                                                             responsibilities. However, as
                                                                             noted in the Environmental Law
                                                                             Reporter, “Interagency
                                                                             coordination concerning the
    Great Lakes National Program Office’s R/V Mudpuppy sampling in the       environment is uneven at best.”
    Buffalo River near the Smith Street habitat restoration site, Buffalo,   The National Resource Council
    New York, August 2005. (EPA photo)                                       noted that:

                             With its limited budget and staff, and broad mandate, it is not possible or
                             reasonable for EPA to act alone in understanding and addressing all
                             environmental problems. . . . EPA cannot (and should not) by itself
                             develop and apply all the knowledge needed to discharge its mandate,
                             because its resources are not sufficient and because others are also
                             engaged in information gathering and analysis. . . . Many other federal
                             agencies, state agencies, academic institutions, and private companies
                             have played and will continue to play important roles.

                    A coordinated national policy would help address complex and emerging
                    environmental problems by unifying efforts around common solutions.

Fragmented Efforts

                    The current, fragmented approach to environmental protection stems from
                    environmental laws that often focus on a single medium or threat, and EPA goals
                    and offices that implement separate legislative mandates. EPA’s media-specific
                    program offices, as well as the statutes they implement, inhibit the process of
                    comparing risks, setting priorities, and considering ways to integrate the program

8
  We evaluated EPA’s attempts to resolve the environmental challenges in these water bodies in several reports,
including: EPA Needs to Accelerate Adoption of Numeric Nutrient Water Quality Standards, Report No. 09-P-0223,
August 26, 2009; EPA Needs a Cohesive Plan to Clean Up the Great Lakes Areas of Concern, Report No. 09-P-
0231, September 14, 2009; and several reports on the Chesapeake Bay that can be found at
http://www.epa.gov/oig/reports/chesapeake.htm.


                                                            8

                                                                                                    10-P-0140


                 activities. Prior OIG reports describe situations – for example, risk management
                 and climate change – in which EPA offices could better coordinate their efforts.
                 During congressional hearings on elevating EPA to cabinet status in 2001 and
                 2002, witnesses testified that “EPA’s ‘stovepipe’ organizational structure hinders
                 the dissemination of scientific data, innovative programs, and cross-media
                 analysis.”9

                 Fragmentation also results from the diffuse roles of other stakeholders. For
                 example, a 2005 NAPA report noted that the piecemeal evolution of
                 environmental programs affects the Agency’s collection of facility data held by it
                 and the States. NAPA noted, “For many years, EPA has recognized the need for
                 an integrated data system that could pull together and link all of the fragmented
                 pieces of environmental information about regulated facilities contained in all of
                 its media programs’ databases.” NAPA further said, “The fragmented nature of
                 environmental statutes, rules, and programs has made it difficult, if not
                 impossible, for EPA to integrate environmental data across media programs.”

                 Efforts by EPA and State environmental agencies to adopt data standards and
                 share information have begun to successfully demonstrate the potential for more
                 effective data integration. But these efforts do not address the root of the problem
                 – the fragmented interactions among media programs and regulated facilities that,
                 in turn, deprive the public, State and EPA regulators, and businesses of access to
                 multimedia information about environmental impacts. An earlier NAPA report
                 written in 1995 noted:

                         The fragmentation of the federal effort, tensions between the states and
                         federal agencies, and the tension between “top-down” environmental
                         policy and “bottom-up” land use regulation ensure that environmental
                         governance in the U.S. is characterized by conflict, confusion, and
                         frustration. Once Congress made the decision that it would create a
                         national system for environmental governance, it was probably inevitable
                         that the result would be a complex and fragmented system. Congress
                         works through an elaborate structure of committees, each protective of its
                         jurisdiction. As the public became aware of new environmental issues,
                         individual committees and congressional leaders responded by creating
                         new statutes and programs, usually with minimal attention to how they
                         would fit into existing policies and activities. There is little authority at
                         any level of government for overall coordination.

                 The Resources for the Future’s Center for Risk Management has examined efforts
                 to reduce fragmentation in the U.S. pollution control system, including the idea of
                 replacing the current welter of environmental laws with a single, integrated
                 environmental statute. A national policy to coalesce efforts among all

9
 Briefing Memorandum for June 6, 2003 Hearing, “Elevation of the Environmental Protection Agency to
Departmental Level Status: H.R. 37 and H.R. 2138,” prepared by staff for then Congressman Ose (R-CA) for the
U.S. House of Representatives Committee on Government Reform (May 30, 2003).


                                                       9

                                                                                               10-P-0140


                stakeholders would correct fragmentation by organizing various approaches
                toward common goals.

Past EPA Efforts Did Not Include Setting National Policy
                It has been 40 years since the passage of NEPA, which established a broad
                environmental policy for the United States, and the formation of EPA. However,
                NEPA does not outline a national strategy, set national priorities, or unify all
                environmental protection stakeholders. Though NEPA led to EPA’s creation, past
                Agency efforts have not set national environmental policy. In 1992, EPA
                launched the National Environmental Goals Project, which culminated in EPA’s
                main effort to identify and address national goals, the Proposed Environmental
                Goals for America with Milestones for 2005 (1995). This report proposed 15
                long-range environmental goals for the nation and quantitative milestones for
                each goal.

                This effort fell short of being a national policy. The National Research Council
                said this effort did not prioritize individual goals or acknowledge tradeoffs
                between desired outcomes and/or goal choices. EPA officials we interviewed said
                the 1995 report was a creative effort that lacked follow through. Others said that
                those who read it during interagency review either did not comment or were
                overly critical, and that other agencies did not buy off on the concept or want to
                relinquish authority to EPA.

                In a November 2009 letter to our office, EPA’s Office of Policy, Economics, and
                Innovation’s (OPEI’s) Associate Administrator agreed that “coordination of
                environmental policy across agencies and with states can and should be
                improved.”10 However, OPEI’s Associate Administrator does not believe that
                creating a national environmental policy is warranted or a wise use of resources.
                OPEI believes a national policy may detract from, rather than enhance, efforts to
                address important environmental issues. OPEI pointed to initiatives underway
                that it believes have increased coordination and addressed deficiencies (Table
                2-1). However, none of them constitute national policies on environmental
                protection.




10
 Letter from OPEI Associate Administrator to OIG’s Acting Inspector General on OIG Proposed Management
Challenge for a National Environmental Strategy, November 5, 2009.


                                                   10 

                                                                                                     10-P-0140


Table 2-1: EPA Coordination Initiatives Highlighted by OPEI
 EPA’s Strategic Plan includes cross-media initiatives on human health, ecosystems, communities,
 compliance, and environmental stewardship.

    OIG          While goal-specific chapters describe cross-media and interagency activities, the
  Comment        Strategic Plan does not integrate these efforts or describe national goals that go beyond
                 EPA’s current mission and goal structure. An appendix in EPA’s 2006-2011 Strategic
                 Plan identifies 25 agencies that contribute to EPA’s goals. One EPA official noted that
                 although the EPA Strategic Plan is stovepiped, it could offer a significant contribution to
                 formulating a national strategy.

 Department of Transportation, Housing and Urban Development, and EPA entered into an interagency
 partnership creating a framework for coordinating policy and activities related to fostering sustainable
 communities.

    OIG          This effort addresses transportation and housing – two important elements related to
  Comment	       sustainability – but does not include other key players related to agriculture/land use,
                 energy policy, States, and business/industry. EPA’s Director for Sustainable
                 Development in the Office of Research and Development characterized EPA’s effort as
                 a “coordinated framework” as opposed to a strategy with timeframes and goals. In
                 published work on sustainability, this EPA official also said, “EPA’s first step must be a
                 clear strategic plan that coherently connects the dots among existing policies and
                 programs that affect sustainability.”

 EPA has taken steps to prioritize risks across and within media.

    OIG          EPA officials noted that there are opportunity costs associated with coordinated
  Comment        activities, and that high-level priorities to justify the transfer of resources from one
                 program office to another should be identified.

 EPA has developed two reports on the environment that provide data on cross-program issues.

    OIG          In 2001, EPA sought to assemble, for the first time, an extensive set of environmental
  Comment	       indicators important to its mission. EPA presented these indicators in its Draft Report
                 on the Environment Technical Document, released in 2003, and revised, updated, and
                 refined the effort in the Agency’s 2008 Report on the Environment. These reports
                 provided cross-program data to assess status and trends of environmental conditions at
                 the time of each report. These reports did not integrate cross-agency strategies to
                 address national environmental goals. EPA officials said these reports emphasized
                 EPA’s mission, not national environmental policy. Indicator information within these
                 reports did not appear to affect EPA’s priority setting in program offices, nor did it drive
                 EPA’s strategic trends. An EPA official said the Agency’s Office of the Chief Financial
                 Officer – responsible for publishing the 2008 report – did not think it feasible to use the
                 report as it developed EPA’s Strategic Plan. Moreover, though monitoring data for
                 many indicators came from other federal agencies, EPA officials are not sure how other
                 agencies used the 2008 report, if at all.
Source: OIG analysis of OPEI’s November 5, 2009, memorandum; OIG interviews with EPA officials.

                Although OPEI disagrees on the need for a national environmental policy, we
                believe that it is the lack of a clear policy that prevents the integration of the
                initiatives OPEI highlights. OPEI also said that the White House’s CEQ has
                efforts underway to coordinate policy on climate change, urban policy, ocean
                policy, and home energy efficiency retrofitting. However, EPA officials have
                noted that the robustness of CEQ’s role ebbs and flows with changes in
                administration.


                                                      11 

                                                                                                     10-P-0140


                 Observers have also argued that it is imperative to revisit the goals of NEPA,
                 noting:

                          [I]n the decades that followed [NEPA’s enactment and EPA’s creation], a
                          lack of coherence in environmental legislation made it increasingly
                          difficult to pursue an integrated approach to environmental management.
                          Unlike NEPA . . . the media- or subject-specific environmental laws have
                          been described as so “fragmented and unrelated as to defy overall
                          description.”11

                 CEQ also recently acknowledged the need to “modernize and reinvigorate
                 NEPA.” CEQ has released draft guidance concerning greenhouse gases,
                 environmental mitigation commitments, and reporting NEPA activities, but has
                 not issued a comprehensive national environmental policy.

                 In his 1995 testimony before the Senate Committee on Government Affairs, the
                 Comptroller General of the United States said, “the lack of an integrated approach
                 to government leads to redundancy and waste. . . . government can make huge
                 efforts to provide services to the public, yet still fall far short of its intentions
                 because of faulty coordination of its efforts within and across agency lines.”

                 Observations from a 1996 National Research Council report still resonate today:
                 “Although substantial progress has been made in improving environmental
                 quality, the country still lacks a unified national strategy. We have been making
                 environmental laws, not establishing environmental goals.” Thus, though EPA
                 has undertaken worthwhile efforts in the past, the Agency falls short of
                 comprehensive environmental protection if it does not include efforts of other
                 stakeholders.

The Need to Coordinate Across Different Levels of Government
                 EPA’s success in protecting the environment depends on the efforts of other
                 federal agencies and States. In some cases, EPA partners with other entities to
                 accomplish environmental goals and, in other cases, stakeholders have more
                 authority than EPA over activities that impact environmental quality. The lack of
                 a nationally coordinated approach to environmental protection means federal and
                 State efforts function separately. EPA could more effectively protect the
                 environment through a more unified approach.

                 Other Federal Agencies

                 An appendix to EPA’s 2006-2011 Strategic Plan identifies 25 agencies that
                 contribute to EPA’s goals (Table 2-2). Chapters within the Strategic Plan

11
  Environmental Science and Technology draft article, EPA at 40: Bringing Environmental Protection into the 21st
Century, September 23, 2009 (citing Davies, J. C. and Mazurek, J., Pollution Control in the United States:
Evaluating the System, Washington, DC: Resources for the Future, 1999).


                                                       12 

                                                                                                  10-P-0140


                  describe EPA’s individual, discrete activities with other federal agencies but do
                  not mention a national policy connecting each effort.
Table 2-2: Areas of Coordination between EPA and Other Federal Agencies

                                                   Goal 1:                                            Goal 5:
                                                  Clean Air                 Goal 3:        Goal 4:   Compli-
          DEPARTMENT / AGENCY                        and       Goal 2:       Land         Healthy   ance and
                                                   Global     Clean and    Preserva-     Communi-    Environ-
                                                   Climate       Safe      tion and       ties and    mental
                                                  Change        Water     Restoration   Ecosystems Stewardship
Agriculture                                           X           X           X               X         X
Army Corps of Engineers                               X           X           X               X         X
Commerce                                              X                                       X
Consumer Product Safety Commission                    X           X           X               X         X
Defense                                               X           X           X               X         X
Education                                             X           X           X               X         X
Energy                                                X           X           X               X         X
Federal Emergency Management Agency                               X           X               X
General Services Administration                                               X                         X
Health and Human Services                             X           X           X               X         X
Homeland Security                                     X           X           X               X         X
Housing and Urban Development                         X           X                           X         X
Interior                                              X           X           X               X         X
Justice                                               X           X           X               X         X
Labor                                                             X                           X         X
National Aeronautics & Space Administration           X           X           X               X         X
National Science Foundation                                                                   X         X
Nuclear Regulatory Commission                         X           X
Small Business Administration                         X           X           X                         X
State                                                 X           X                           X
Transportation                                        X           X           X               X         X
Treasury                                              X                                                 X
Tennessee Valley Authority                                        X                           X
U.S. Agency for International Development             X           X                           X
U.S. Trade Representative                                                                     X
Source: 2006-2011 EPA Strategic Plan: Charting Our Course, Appendix D (September 30, 2006).

                  In 2005, the OIG developed the Compendium of Environmental Programs to
                  identify specific programs and activities at other federal agencies that contribute
                  to EPA’s strategic goals. We found the following numbers of environmental
                  programs and activities at cabinet-level departments:

                      •    U.S. Department of Agriculture = 65
                      •    U.S. Department of the Interior = 62
                      •    U.S. Department of Transportation = 46
                      •    U.S. Department of Health and Human Services = 41
                      •    U.S. Department of Energy = 40




                                                       13 

                                                                                                   10-P-0140


                  Examples of these environment-related programs include:

                      •	 Two of the U.S. Department of Energy’s five strategic themes address
                         work also done by EPA (“Scientific Discovery and Innovation” and
                         “Environmental Responsibility”). Example programs that are
                         administered by Energy but are similar to EPA programs include
                         alternative fuels, biological and environmental research, nanoscience, and
                         renewable energy. Six of the 15 projects listed on Energy’s “joint
                         initiatives” Website include EPA (Table 2-3).

Table 2-3: U.S. Department of Energy Joint Initiatives with EPA
           Program                                                   Description

  Climate VISION:                 A public-private partnership initiative launched by Energy on February 12,
  Voluntary Innovative            2003, to contribute to the goal of reducing greenhouse gas intensity.
  Sector Initiatives:
  Opportunities Now
  EnergySavers.gov:               An effort to improve energy efficiency in American homes by building
  Partnerships for Home           awareness, delivering savings to those in low-income and subsidized
  Energy Efficiency               housing, and investing in innovative research in building science
                                  technologies, practices, and policies.
  ENERGY STAR                     The government's seal of energy efficiency. The ENERGY STAR label can
                                  be found on everything from home appliances to electronics to windows.
                                  Consumers have purchased more than 1.5 billion products with the
                                  ENERGY STAR® label. From 2007 through 2008, Energy and EPA issued
                                  criteria documents for lighting with different requirements, which created
                                  confusion in that industry. Energy issued its ENERGY STAR Solid-State
                                  Lighting document in September 2007, and EPA issued a criteria document
                                  on residential light fixtures in 2008. Industry sources said the documents
                                  created two sets of criteria covering the same products, which could cause
                                  confusion in the marketplace. Energy and EPA issued a joint statement in
                                  September 2009 outlining their distinct roles and responsibilities in the
                                  ENERGY STAR program.
  Fueleconomy.gov                 Website that provides consumers with practical information on achieving the
                                  best possible fuel economy in their vehicles and saving money at the pump.
                                  Fueleconomy.gov also contains information on some of the most fuel-
                                  efficient alternative vehicles on the market.
  National Action Plan            A plan that recommends investment by utility companies in cost-effective,
  for Energy Efficiency           energy-efficient technologies to meet consumer demand for clean energy.
  Science.gov                     An initiative that searches over 40 scientific databases and 200 million
                                  pages of scientific information with just one query (a gateway to 1,950+
                                  scientific Websites). EPA is an alliance partner in this initiative.
Source: OIG analysis of the U.S. Department of Energy’s “Joint Initiatives” Website.


                      •	 The U.S. Department of Transportation has policy goals in five strategic
                         areas, one of which is “Environmental Stewardship”: to promote
                         transportation solutions that enhance communities and protect the natural
                         and built environment. Transportation’s Office for Transportation Policy
                         has an Office for Safety, Energy, and the Environment that initiates and


                                                         14 

                                                                                             10-P-0140


                            coordinates policies on environmental issues affecting all aspects of
                            transportation. The office has an Energy and Environment Team
                            responsible for developing and reviewing transportation legislation and
                            regulations, and coordinating national transportation policy initiatives
                            relating to environmental matters. Major policy areas addressed by this
                            team include alternative fuels, sustainability, environmental justice,
                            climate change, and environmental stewardship.

                       •	 The State Department has two environmental offices – the Office of
                          Environmental Policy and the Office of Ecology and Natural Resource
                          Conservation. One of State’s four strategic objectives is “Social and
                          Environmental Issues,” and the department lists environmental protection
                          as a performance goal.

                  Some agencies have greater authority than EPA over other program areas. For
                  example, opportunities exist to substantially increase the number of homes tested
                  and mitigated for radon. Housing financed, underwritten, controlled, or owned by
                  four federal departments represents a significant number of homes that could be
                                          tested, mitigated, or built radon resistant. These agencies
                                          include the U.S. Departments of Housing and Urban
                                          Development, Defense, Veterans Affairs, and
                                          Agriculture.

                                             Additionally, a joint 2006 report by our office and
                                             USDA-OIG on the Chesapeake Bay noted that while
                                             local farming associations support clean-up efforts, they
                                             oppose granting EPA authority to control nonpoint source
                                             pollution entering the watershed. This creates an
Wastewater and rainwater from an area        opportunity for the U.S. Department of Agriculture to
where dairy cows are housed flow to the
drain (center of photo), which is directed   assist EPA in working with local farming communities
to a storage tank. (EPA OIG photo)           surrounding the Chesapeake Bay. Our report noted:

                            USDA, a Bay partner at the Federal level, could significantly assist EPA
                            in implementing the needed conservation practices within the agricultural
                            community. Given its many conservation programs, extensive field
                            organization, and long experience working with the agricultural
                            community, USDA’s commitment and collaboration would significantly
                            contribute to the EPA Chesapeake Bay Program Office’s plan for long-
                            term improvement to the Bay’s water quality. . . . Through its technical
                            services, research, outreach, and cost-share programs, USDA can
                            significantly affect producers’ agricultural practices . . . . The ultimate
                            success of the Chesapeake Bay Program depends upon encouraging
                            landowners to adopt farming and natural resources conservation
                            practices consonant with the Bay’s long-term environmental health. Of
                            all the agencies in the Federal Government, USDA may be best positioned
                            to persuade farming producers to adopt progressive agricultural practices



                                                     15 

                                                                                                            10-P-0140


                           and to help communities and private landowners conserve natural
                           resources.

                  The American Recovery and Reinvestment Act of 2009 illustrates the degree to
                  which other agencies have a role in protecting the environment. Almost
                                20 percent ($147 billion) of the total Recovery Act funding of
                                $787 billion has gone to federal agencies other than EPA that have
                                environmental mandates in areas such as energy usage, air quality,
                                climate change, water quality, solid and hazardous waste, materials
                                management, or land conservation. EPA received $7.2 billion
                                (0.9 percent of total Recovery Act funding), or 5 percent of
                                Recovery Act funds with potential environmental implications.

                                    The Recovery Act is also an example of the importance of a
                                    national policy to connect federal environmental efforts. Recovery
                                    Act efforts lack cross-agency metrics to measure success in
Vegetated curb extensions used      accomplishing environmental goals. For example, no standards
to decrease stormwater runoff
as part of a “green reserve”        exist among stakeholders on which to base measures of
project. (EPA photo)                environmental risk and outcomes at a national level.

                  The FY 2011 President’s Budget shows that EPA is 1 of 14 federal agencies with
                  research and development programs, and 1 of 11 agencies that contributes
                  research to the Global Change Research Program. EPA also participates in the
                  Interagency Task Force to develop and implement the Great Lakes Restoration
                  Initiative. In FY 2011, EPA will lead the Initiative’s implementation, allocating
                  $300 million for programs to target the most significant environmental problems
                  in the Great Lakes ecosystem. In its leadership role, EPA will distribute funding
                  directly or transfer funds to other federal agencies for subsequent use and
                  distribution. Using this example, a national policy could provide agencies like
                  EPA that lead cross-agency efforts additional direction on utilization of resources
                  to achieve environmental goals.

                  Budget data also identify potential areas of duplication and the need for
                  coordinating and streamlining cross-agency efforts to more efficiently achieve
                  environmental goals. For example, the FY 2011 President’s Budget identifies
                  budget reductions of $129 million for water and wastewater infrastructure
                  projects12 at the U.S. Army Corps of Engineers that duplicated programs in other
                  agencies or that could be better addressed through other federal programs. The

12
  Our report identifying FY 2010 management challenges for EPA noted, “The federal government does not have a
national approach to bridging the water and wastewater infrastructure gap. A comprehensive approach . . . would
realistically assess the investment requirements, alert the public and Congress of unfunded liabilities and risks, and
work with States and local governments to organize resources to meet needs. While EPA is responsible for
administering the Clean Water Act and Safe Drinking Water Act, it does not have resources or authority to address
the funding gap. In its role administering the Clean Water Act and Safe Drinking Water Act, EPA should ensure
there is a comprehensive federal understanding of the risks to public health, the environment, and the economy if
this critical resource gap remains unresolved. . . . EPA should take the lead in organizing a coherent federal strategy
within the limits of its statutory authorities and responsibilities.”


                                                          16 

                                                                                                           10-P-0140


                  Budget identifies funds for the Rural Community Facilities program run by the
                  U.S. Department of Health and Human Services, Administration for Children and
                  Families, which duplicates other wastewater treatment programs in the U.S.
                  Department of Agriculture and EPA. The FY 2011 President’s Budget also
                  identifies funding for elimination in a competitive grant program for local
                  communities to reduce greenhouse gas emissions because the program lacks
                  focus, applies to disparate sectors, and duplicates more substantial greenhouse gas
                  emission reduction programs across the Federal Government. The President’s
                  Budget noted that emissions reductions will be better realized through existing
                  EPA capacity building and recognition programs such as ENERGY STAR, Smart
                  Growth, AgSTAR, and eventually, through the Administration’s comprehensive
                  greenhouse gas reduction effort.

                  As these examples show, environmental quality depends on policies related to
                  farming, energy, water, transportation, and federal land management, but neither
                  Congress nor the Executive Branch has fully engaged the task of harmonizing
                  these issues.

                  States

                  EPA’s success in accomplishing its goals largely depends on State efforts. The
                  Environmental Council of the States13 asserts that State government agencies are
                  the key to delivering environmental protection afforded by both federal and State
                  law. Although EPA has oversight of State agencies, the absence of a national
                  policy to coordinate all levels of government has resulted in the inconsistent
                  implementation of environmental programs by States. A comprehensive, national
                  approach could improve the capability of State environmental agencies to protect
                  and improve human health and the environment.

                  EPA’s Strategic Plan notes that delegated State programs conduct much of the
                  day-to-day work involved in many air and water programs. As of 2007, States
                  operated 96 percent of the delegable federal environmental programs. Delegation
                  includes permitting, inspections, monitoring, and enforcement, and often includes
                  standards setting. States collect 94 percent of the environmental data found in
                  EPA’s databases and conduct about 90 percent of all enforcement actions.

                  While States play a critical role in environmental protection, EPA maintains an
                  equally important oversight role that would be bolstered by a comprehensive
                  national policy. EPA must resolve interstate disputes in the absence of uniform,




13
  The Environmental Council of the States is a national, nonprofit, nonpartisan association of State and territorial
environmental agency leaders. The council seeks to improve the capability of State environmental agencies and
their leaders to protect and improve human health and the environment of the United States of America.


                                                          17 

                                                                                                        10-P-0140


                 consistent environmental goals between States.14 Additionally, our work has
                 shown that inconsistent oversight of State programs can lead to:

                      •   Inconsistent enforcement guidance interpretation
                      •   States and regions not meeting minimum reporting requirements
                      •   Differing standards for State delegation agreements among the regions
                      •   Inaccurate data systems
                      •   Internal control deficiencies

                 EPA’s coordination with State and local groups on large water bodies illustrates
                 these important issues. A U.S. Government Accountability Office report noted
                 that after decades of EPA and its partners’ spearheading restoration efforts in
                 areas such as the Great Lakes and the Chesapeake Bay, improvements to these
                 waterbodies remain elusive. The longstanding issues impeding such efforts
                 include a lack of (1) targeted strategies; (2) coordination among federal, State, and
                 local stakeholders; and (3) realistic goals to ensure that limited restoration
                 resources are being used for the most effective restoration activities.

                 Cooperative efforts between EPA, States, and other organizations under a national
                 environmental policy could lead to more effective solutions and policies to
                 address environmental problems. As the National Research Council found in its
                 1997 publication Building a Foundation for Sound Environmental Decisions, “a
                 collective effort can yield results far greater than the sum of individual, isolated
                 endeavors.” Additionally, cooperative efforts could help address the
                 Administrator’s priorities to expand the conversation on environmentalism15 and
                 build strong State and tribal partnerships.

Others Have Utilized National Policy Approaches

                 Other Federal Departments

                 EPA is not the only federal entity whose activities depend on other federal and
                 State/local efforts. Federal departments that address other, critical public services
                 – such as homeland security and national defense – recognized the need to



14
   For example, EPA has begun developing a watershed model to create a nutrient clean-up plan for the Oklahoma
and Arkansas portions of the Illinois River because the States failed to reach an agreement. Previous EPA efforts –
including a “Statement of Joint Principles and Actions” that the Agency developed with the States in 2003 – did not
yield desired results. The dispute centers on the disparity between discharge limits for point sources in Arkansas
and Oklahoma. Because Arkansas’ limit is less stringent, Oklahoma, as the downstream State, has a limited ability
to improve the water quality. EPA acted because the two States have been unable to develop a water quality
standard.
15
   On January 12, 2010, EPA Administrator Jackson issued a memorandum listing seven priorities for EPA’s future,
one of which included “expanding the conversation on environmentalism.” Though the priority pertained to
environmental justice and protecting historically underrepresented communities, its tenets to conduct outreach and
build strong working relationships with external stakeholders applies in this context as well.


                                                        18 

                                                                                                        10-P-0140


                 formulate national approaches to guide, integrate, organize, and unify efforts
                 across all levels of government.16

                 After the terrorist attacks on September 11, 2001, the White House and Congress
                 created the U.S. Department of Homeland Security to organize activities spread
                 across more than 40 federal agencies and an estimated 2,000 separate
                 congressional appropriations accounts. Shortly thereafter, the White House
                 issued the first National Strategy for Homeland Security. The new department
                 noted, “More than 87,000 different governmental jurisdictions at the federal, state,
                 and local level have homeland security responsibilities. The comprehensive
                 national strategy seeks to develop a complementary system connecting all levels
                 of government without duplicating effort. Homeland Security is truly a ‘national
                 mission’.” In addition to providing direction to federal departments and agencies
                 that have a role in homeland security, the strategy also includes roles and
                 responsibilities for State and local governments and private companies and
                 organizations. As such, the President noted that it amounted to “a national
                 strategy, not a federal strategy” to “guide, organize, and unify our Nation’s
                 homeland security efforts.”

                 The White House revised the National Strategy for Homeland Security in 2007.
                 The revised Strategy noted, “Homeland security requires a truly national effort,
                 with shared goals and responsibilities for protecting and defending the Homeland.
                 Our Strategy leverages the unique strengths and capabilities of all levels of
                 government, the private and non-profit sectors, communities, and individual
                 citizens.”

                 In 2007, Congress passed legislation mandating a Quadrennial Homeland Security
                 Review of the Strategy beginning in FY 2009.17 Through the Quadrennial
                 Homeland Security Review, the Secretary for Homeland Security recognized that
                 the department’s capacity for mission-focused innovation depends on its ability to
                 reach out to partners and draw on their insights and expertise. This
                 comprehensive review includes recommendations regarding long-term strategy
                 and priorities for homeland security. The review will result in guidance on the
                 department’s programs, assets, capabilities, policies, and authorities.

                 Similarly, the legislatively mandated 2010 Quadrennial Defense Review of the
                 National Defense Strategy assesses the U.S. Department of Defense’s capabilities



16
   Other national strategies we identified include the National Security Strategy, National Strategy for Combating
Terrorism, and National Health Security Strategy. In addition, a recent U.S. Government Accountability Office
report recommended developing a national strategy for climate change and specified the actions Congress and the
Federal Government could take to lessen related challenges.
17
   “The Implementing Recommendations of the 9/11 Commission Act of 2007,” which became law on August 3,
2007, requires that every 4 years, beginning in FY 2009, the Secretary of Homeland Security conducts a
Quadrennial Homeland Security Review of the United States. The Secretary planned to provide conclusions of the
first review to Congress in a final report by December 31, 2009, but issued the report in February 2010.


                                                        19 

                                                                                                  10-P-0140


                and priorities.18 The main difference between the Defense and Homeland
                Security reviews is that the Quadrennial Defense Review occurs internally and
                focuses solely on the activities of the U.S. Department of Defense, while the
                Quadrennial Homeland Security Review provides an enterprise-wide focus on
                responsibilities across government supporting “the homeland security strategy of
                the Nation.”

                In congressional testimony on the Quadrennial Homeland Security Review
                process, one witness described common challenges to national defense and
                homeland security that underscore the need for and importance of priority setting
                and strategic planning. The witness noted that both departments are:

                     •	 Charged with missions vital to the health and welfare of the nation.
                     •	 Large, complex bureaucracies comprising a number of diverse and (in
                        some cases, previously independent) organizations, each with its own
                        cultures, traditions, and ways of doing business.
                     •	 Responsible for spending billions of taxpayer dollars as efficiently and
                        effectively as possible.
                     •	 Perennially in the position of having more programs to pay for than their
                        budgets can cover.
                     •	 Trying to balance near-term demands against long-term investments.

                EPA faces similar challenges in accomplishing its goals. As such, these
                homeland security and national defense approaches could serve as useful
                examples for EPA to develop and implement a national policy and quadrennial
                review for environmental protection.

                Other Countries

                Australia and Japan have a national policy approach to their environmental
                protection legislation and activities. Both countries recognize the value of
                establishing national environmental goals and setting national policy, and their
                approaches most closely resemble what we advocate in this report.

                The Australian government enacted its primary environmental legislation – the
                Environment Protection and Biodiversity Conservation Act 1999 – in July 2000.
                The Act specifies how the Australian government will protect “flora, fauna,
                ecological communities and heritage places” of both national and international
                importance, and describes these elements as “matters of national environmental
                significance.” The Act empowers the Australian government to enlist both the
                states and territories to achieve a “truly national scheme of environment and
                heritage protection and biodiversity conservation.” The Australian government,
                in cooperation with multiple partners, lists in the Act seven items of “national

18
   The U.S. Department of Defense conducted previous Quadrennial Defense Reviews in 1997, 2001, and 2006, and
issued its most recent review to Congress in February 2010.


                                                     20 

                                                                        10-P-0140


environmental significance” to protect. The Australian government plans to
achieve this partnership approach through establishing bilateral agreements with
states and territories and agreements with landholders, and by involving
indigenous people in conservation and communities in management planning.

The Australian government established the Department of the Environment,
Water, Heritage and the Arts to develop and implement national policy, programs,
and legislation to protect and conserve Australia’s environment and heritage. In
keeping with the national emphasis of environmental protection, annual reports
prepared by Commonwealth departments, parliamentary departments,
commonwealth authorities, commonwealth companies, and other commonwealth
agencies must include a report on environmental matters. Per orders of the
department’s minister, the department must prepare a “state of the environment”
report on Australia, which the minister presents to Parliament. The minister must
also establish an independent review, at least every 10 years, of the Act’s
operation and how well it has met its objectives.

Similarly, in 1993, the Japanese government established a “Basic Environmental
Law” to chart the direction of the nation’s environmental policies. Before the
enactment of the Basic Environment Law, Japanese environmental policies had
been based on two fundamental laws – the Basic Law for Environmental Pollution
Control, enacted in 1967, and the Nature Conservation Law, enacted in 1972.
These laws, which were drafted to address serious industrial pollution and to
preserve the natural environment, worked quite successfully. However, as
Japan’s social/economic system and consumer lifestyles promoted mass
production, mass consumption, and mass disposal, this legal framework (which
consisted mainly of restrictions) could no longer deal adequately with some of the
newer and more complex environmental problems that emerged, such as those
relating to urban and household-generated pollution and the global environment.

The Japanese government’s approach acknowledged that environmental issues
cannot be divided into categories, like human health, mankind’s living
environment, or the natural environment. Rather, the government adopted a
comprehensive approach that considers causes and effects throughout the entire
system. Additionally, the Japanese government understood that many current
environmental problems arise from the routine, daily activities of companies and
individual citizens; therefore, all members of society must actively and
voluntarily conserve the environment.

The first chapter of Japan’s Basic Environmental Law sets out three basic
principles for environmental conservation and the responsibilities of each sector
of society – national and local governments, corporations, and citizens – in
realizing these principles. The second chapter gives a list of basic environmental
conservation policies, including the formulation of the Basic Environment Plan,
the promotion of environmental conservation practices, and measures to deal with
global environmental problems. The Basic Environmental Plan, which is based



                                21 

                                                                                                        10-P-0140


                 on the Basic Environment Law, outlines comprehensive and long-term measures
                 relating to environmental conservation for the entire government. To ensure
                 effective implementation, the plan calls for the government to enhance its systems
                 for monitoring progress. For example, the Central Environment Council annually
                 monitors the progress of the Basic Environment Plan. The council holds public
                 hearings at various locations in Japan so that the views and opinions of citizens
                 can be reflected in its reports to the national government. The council also
                 presents performance reviews on the plan’s progress and implementation.

Challenges to Implementing a National Policy
                 We recognize that developing and implementing a national policy poses a number
                 of challenges, including:

                      •	 Determining and agreeing on the contents and goals of a national policy
                         (i.e., national environmental goals).
                      •	 Agreeing on the approach a national policy should take (e.g.,
                         precautionary principle, economic incentives).
                      •	 Addressing opportunity costs that would result from focusing on some
                         national goals and priorities over others.
                      •	 Determining whether and how to increase the national perception and
                         importance of ecosystem services.

                 Other challenges include identifying participants; achieving buy-in;19 and
                 coordinating across government, States, and other stakeholders nationwide.

                 In addition to other federal agencies, States, and the White House CEQ, our
                 interviewees suggested the following stakeholders as a sample of those with
                 whom EPA should work on national environmental policy:

                      •	   White House
                      •	   Key members of Congress and relevant congressional committees
                      •	   Environmental Council of the States
                      •	   National Academies
                      •	   National Science Foundation
                      •	   Environmental Law Institute and other environmental law scholars
                      •	   Groups such as the Woodrow Wilson Center’s governance section, the
                           World Wildlife Fund, the World Resources Institute, and the World
                           Environment Center



19
  Although EPA officials and staff said that staff-level Agency employees display great interest and enthusiasm in
cross-program strategies and innovative approaches, senior EPA managers seem reluctant to embrace these efforts.
Staff briefings on the Report on the Environment, for example, did not garner much reaction from senior executives.
Others noted that no progress can be made without the commitment from senior leadership.


                                                        22 

                                                                                   10-P-0140


         These challenges are not insurmountable. In fact, all of our interviewees agreed
         on the value in a national policy approach toward environmental protection. For
         example, the project lead for the Quadrennial Homeland Security Review said
         environmental protection could benefit from a national strategy that recognizes
         EPA’s regulatory role and the responsibilities of other players (i.e., enterprise-
         wide approach).

         EPA’s Director for Sustainable Development, who is one of several scholars
         urging EPA to consider new approaches to 21st century problems as it heads into
         its 40th anniversary, agrees that a national approach is worthwhile. He believes
         that EPA needs a strategy to move the Agency from its important history toward
         thinking about environmental problems in a more systematic way.

         Former Deputy Administrator Marcus Peacock also found a national policy an
         intriguing idea worth pursuing. NAPA also believes that EPA should play a
         leadership role in harmonizing national efforts. Former EPA Administrator
         Ruckelshaus described the development of a national policy as an improvement
         on the way we manage the environment by working toward a common set of
         solutions. Ruckelshaus agrees that this is a massive undertaking that is well worth
         the effort.

Conclusion
         Environmental protection – like homeland security and national defense – is a
         public good and as such requires a nationally coordinated policy approach.
         EPA’s efforts to set regulatory standards, particularly for problems that cross
         State or national borders or pose risks to future generations, would benefit from
         setting national environmental goals. Congress should provide EPA and other
         federal agencies the capacity to identify and manage environmental problems of
         national significance. Congress and the Administration should examine ways to
         leverage resources currently allotted to insular environmental protection efforts.
         The Administration should propose to Congress that it create expert panels that
         consider formulating a national environmental policy and subsequent quadrennial
         review. Congress could also consider passing legislation recommended by these
         panels that harmonizes various efforts and, where appropriate, maintains existing
         requirements in environmental statutes. Through these efforts, EPA and its
         partners could move away from isolated, media- and interest-specific initiatives
         toward a more cohesive, unified, and future-thinking approach to environmental
         protection. While EPA at 40 has much to celebrate, by 50 the Agency should
         have taken the critical – albeit challenging – steps necessary to integrate efforts
         through its role as the Nation’s environmental leader.

Agency Comments and OIG Evaluation

         EPA’s Deputy Administrator responded to our draft report on April 30, 2010.
         Overall, the Agency disagreed with our draft report suggestion to develop a


                                          23 

                                                                          10-P-0140


national environmental policy and quadrennial review. The Agency noted, and
we agree, that the passage of NEPA 40 years ago established a broad
environmental policy for the United States. However, we believe the structure
created by NEPA has not resulted in a comprehensive approach to environmental
protection. NEPA does not outline a national strategy, set national priorities, or
unify all environmental protection stakeholders. The Agency has never had
complete regulatory authority or control over many activities that impact the
condition of our Nation’s environment, such as land use and transportation
planning. Therefore, the Agency has never been in the position to meet NEPA’s
challenge to carry out national environmental policy on its own. We have made
changes to the report, as appropriate, to include a broader discussion about NEPA.

The Agency also noted that various media-specific authorities govern the way in
which EPA and other agencies operate and that, taken together, specify national
policy. Our report acknowledges media-specific authorities such as the Clean
Water Act and Clean Air Act, but also notes how these approaches resulted in
fragmented statutory frameworks. We continue to maintain that rigid
environmental laws, regardless of general national policy statements and goals
individual statutes may include, make it difficult for the Agency to adequately
address new, complex environmental challenges. A comprehensive national
policy would provide stakeholders with a clear, unified goal structure to address
existing and new environmental challenges.

The Agency’s response indicated that our draft report suggested that EPA
reorganize based on functional areas. We agree with what the Agency describes
as its organizational needs and complexities and do not recommend that EPA
reorganize internally at this time.

We agree with the Deputy Administrator’s comment that this approach would
take an “enormous effort” and could “require a large investment of time and
resources.” However, by developing a national environmental policy, the
Administration and Congress could provide EPA and other federal agencies the
capacity to identify and manage environmental problems of national significance.
This approach could give EPA the force of national environmental goals to set
regulatory standards, particularly for problems that cross State or national borders
or pose risks to future generations.

The Agency’s full response is in Appendix C.




                                 24 

                                                                                                                            10-P-0140



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                  POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                 BENEFITS (in $000s)

                                                                                                      Planned
    Rec.    Page                                                                                     Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1     Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                            25 

                                                                              10-P-0140


                                                                            Appendix A

                           EPA Organizational Phases
Phase 1: EPA Organization as of December 15, 1970:




Source: Williams, The Guardian: EPA's Formative Years, 1970-1973, 1993.

Phase 2: EPA Organization as of April 30, 1971:




Source: Williams, The Guardian: EPA's Formative Years, 1970-1973, 1993. 




                                                      26 

                                                                                                              10-P-0140


Current EPA Organizational Structure:

              Administrator
           Deputy Administrator



              Office of Administration and                                           Office of Enforcement and
                                                Office of Air and Radiation
                Resource Management                                                   Compliance Assurance



                Office of the Chief
                                                Office of General Counsel              Office of Inspector
                 Financial Officer
                                                                                            General


                                                Office of Environmental               Office of Prevention,
                Office of International
                                                      Information                     Pesticides, and Toxic
                        Affairs
                                                                                           Substances


               Office of Research and           Office of Solid Waste and
                                                                                         Office of Water
                    Development                  Emergency Response


              Region 1            Region 2         Region 3               Region 4        Region 5
               Boston             New York        Philadelphia             Atlanta        Chicago




              Region 6             Region 7        Region 8            Region 9         Region 10
               Dallas             Kansas City       Denver           San Francisco       Seattle

      Source: EPA Website, http://www.epa.gov/aboutepa/organization.html.




                                                        27 

                                                                                      10-P-0140


                                                                                  Appendix B

                                      References
Dernbach, John C. “National Governance: Still Stumbling Toward Sustainability.”
  Environmental Law Reporter – Special Issue: Agenda for a Sustainable America, April 2009.

DeWitt, John. Center for the Economy and the Environment. The Place of Regions in
  Governance of the Environment and Natural Resources in the United States. Prepared for the
  Joint U.S.-German Conference on Regionalism Below the State-Level in Germany and the
  United States, Speyer, Germany March 31-April 2, 1998.
  http://www.napawash.org/aa_federal_system/98_region_place.html.

Environmental Council of the States Website. http://www.ecos.org/section/states/enviro_actlist.

Fiorino, Daniel J. The New Environmental Regulation, 2006.

———. “Toward a New System of Environmental Regulation: The Case for an Industry Sector
 Approach.” Environmental Law 26: June 22, 1996.

Flournoy, Michele A. Center for a New American Security. “The Quadrennial Defense Review:
   A Model for the Quadrennial Homeland Security Review.” Testimony before the House
   Committee on Homeland Security, March 20, 2007.

Hecht, Alan D. “The Next Level of Environmental Protection: Business Strategies and
  Government Policies Converging on Sustainability.” Sustainable Development Law & Policy
  8, Issue 1: Fall 2007.

———. “Sustainability at the U.S. Environmental Protection Agency: 1970–2020.” Ecological
 Engineering, 2007.

National Academy of Public Administration. Ash Council Case Study. Developed for the
  Standing Panel on Executive Organization and Management by Dwight Ink, March 12, 2002.

———. Environment.gov: Transforming Environmental Protection for the 21st Century,
 November 2000.

———. A Report of the Environmental Information Consortium: For the Office of
 Environmental Information, U.S. Environmental Protection Agency, 2005.

———. Resolving the Paradox of Environmental Protection: An Agenda for Congress, EPA &
 the States, September 1997.

———. Setting Priorities, Getting Results: A New Direction for EPA, 1995.




                                              28 

                                                                                   10-P-0140


National Research Council. Committee on Research Opportunities and Priorities for EPA.
  Building a Foundation for Sound Environmental Decisions, 1997.

———. Policy Division. Linking Science and Technology to Society’s Environmental Goals,
 1996.

Resources for the Future. Resources. Issue 124, Summer 1996.
  http://www.rff.org/Documents/Resources/Resources-124.pdf.

Schoenbrod, Richard B., Richard Stewart, and Katrina M. Wyman. Breaking the Logjam:
  Environmental Reform for the New Congress and Administration. Project Report, February
  2009. http://www.breakingthelogjam.org/.

U.S. Department of Defense. 2010 QDR Terms of Reference Fact Sheet, April 27, 2009.

U.S. Department of Homeland Security. H
                                      	 istory Office. Brief Documentary History of the
  Department of Homeland Security: 2001-2008.

U.S. Department of Homeland Security Website.	 “Department Subcomponents and Agencies.”
  http://www.dhs.gov/xabout/structure/.

U.S. Environmental Protection Agency. “	 Appendix D: Areas of Coordination Between EPA and
  Other Federal Agencies.” 2006-2011 EPA Strategic Plan: Charting Our Course, September
  30, 2006.

———. “A Vision for EPA’s Future: An Interview with William K. Reilly.” EPA Journal,
 September/October 1990.

———. Office of Inspector General. “The Clean Water Act after 37 Years: Recommitting to
 the Protection of the Nation’s Waters.” Statement of Wade T. Najjum, Assistant Inspector
 General for Program Evaluation, Before the Committee on Transportation and Infrastructure,
 U.S. House of Representatives, October 15, 2009.

———. Office of Inspector General. Compendium of Environmental Programs.
 http://yosemite.epa.gov/oig/compendium.nsf/HomePage?OpenForm.

———. Office of Inspector General. EPA Does Not Provide Oversight of Radon Testing
 Accuracy and Reliability. Report No. 09-P-0151, May 12, 2009.

———. Office of Inspector General. EPA Has Initiated Strategic Planning for Priority
 Enforcement Areas, but Key Elements Still Needed. Report No. 08-P-0278, September 25,
 2008.

———. Office of Inspector General. EPA Needs a Comprehensive Research Plan and Policies
 to Fulfill Its Emerging Climate Change Role. Report No. 09-P-0089, February 2, 2009.




                                             29 

                                                                                 10-P-0140


———. Office of Inspector General. EPA Region 8 Needs to Better Manage the Risk
 Management Program for Airborne Chemical Releases. Report No. 09-P-0130, March 30,
 2009.

———. Office of Inspector General. EPA’s Key Management Challenges 2009, April 28, 2009.

———. Office of Inspector General. FY 2010 Annual Plan with Strategic Plan Update,
 October 2009.

———. Office of Inspector General. Saving the Chesapeake Bay Watershed Requires Better
 Coordination of Environmental and Agricultural Resources. Report No. 2007-P-00004,
 November 20, 2006.

———. Office of Policy, Economics, and Innovation. Office of Cross-Media Programs
 Website. “HUD, DOT, and EPA Partnership: Sustainable Communities,” June 16, 2009.
 http://www.epa.gov/dced/pdf/dot-hud-epa-partnership-agreement.pdf.

———. Office of Research and Development. National Center for Environmental Assessment
 Website. “Report on the Environment home page,” http://cfpub.epa.gov/eroe/ and “Report on
 the Environment basic information,” http://www.epa.gov/ncea/eroebi/.

U.S. Government Accountability Office. C
                                       	 limate Change Adaptation: Strategic Federal
  Planning Could Help Government Officials Make More Informed Decisions. GAO-10-113,
  October 2009.

———. Environmental Protection Agency: Major Management Challenges. GAO-09-434,
 March 2009.

———. “Government Reorganization: Issues and Principles.” Statement of Charles A.
 Bowsher, Comptroller General of the United States, Before the U.S. Senate Committee on
 Government Affairs, May 17, 1995.

U.S. House of Representatives. 	Committee on Government Reform. Briefing Memorandum for
  June 6, 2003, Hearing, “Elevation of the Environmental Protection Agency to Departmental
  Level Status: H.R. 37 and H.R. 2138.” Prepared by staff for Congressman Ose, May 30,
  2003.

Williams, Dennis C. The Guardian: EPA’s Formative Years, 1970-1973, 1993.

Wisman, Phil. EPA History 1970-1985, November 1985.




                                            30 

                                                                                       10-P-0140


                                                                                   Appendix C

                  Agency Response to Draft Report
                                         April 30, 2010

MEMORANDUM

SUBJECT: 	 Draft Special Report: National Environmental Policy and Quadrennial
              Review Needed

TO: 	         Bill Roderick
              Acting Inspector General

    Thank you for the opportunity to comment on the Draft Special Report in which you
recommend the development of a National Environmental Policy and Quadrennial Review. My
comments and suggestions follow. I also appreciate the several conversations we have had with
you and your staff.

A National Environmental Policy Already Exists

    Your report starts with the assumption that there is no overarching environmental policy
or framework governing environmental issues that cut across the federal government. The report
concludes that, as a result, the U.S. Environmental Protection Agency lacks authority or
control over many activities that impact the condition of our nation's environment and that new,
complex environmental problems require more concerted and coordinated efforts with other
agencies, states and stakeholders. You suggest that Congress should consider integrating
legislation to harmonize various environmental protection activities while maintaining existing
requirements.

    Our view is that a set of national environmental policy does exist in the form of
authorizing statutory goals and mandates embodied in the National Environmental Policy Act
and in the various media-specific authorities under which EPA and other agencies operate. For
example, NEPA provides as its purpose:

   To declare a national policy which will encourage productive and enjoyable harmony
   between man and his environment; to promote efforts which will prevent or eliminate
   damage to the environment and biosphere and stimulate the health and welfare of man; to
   enrich the understanding of the ecological systems and natural resources important to the
   nation; and to establish a Council on Environmental Quality.

    Title 1 of NEPA goes on to specify that it is the continuing responsibility of the federal
government to use all practicable means to fulfill the current generation's responsibilities to
protect the environment for succeeding generations; to attain the widest range of beneficial uses
of the environment without its degradation or risk to human health and safety; and to enhance the
quality of renewable resources while maximizing the recycling of depletable resources.


                                               31 

                                                                                           10-P-0140




    Major media-specific statutes also include national policies and goals. The stated
objective of the Clean Water Act is to restore and maintain the chemical, physical and biological
integrity of the nation's waters. The Clean Water Act also specifies a number of specific goals
and policies. Similarly, one of the stated purposes of the Clean Air Act is to protect and enhance
the quality of the nation's air resources to promote the public health and welfare and the
productive capacity of its population. The Resource Conservation and Recovery Act lists a
number of specific objectives and declares the national policy of the United States to be that the
generation of hazardous waste be reduced or eliminated as expeditiously as possible. The Toxic
Substances Control Act and the Endangered Species Act also articulate national policies as
expressed by Congress. (See Attachment 1)

   Taken together, these major environmental statutes already specify national policies and
goals governing all agencies of the federal government.

   Your report acknowledges that Congress has attempted to pass second generation
environmental legislation, but has repeatedly failed to do so. In fact, the report quotes the
National Academy of Public Administration as saying:

       Once Congress made the decision that it would create a national system
       for environmental governance, it was probably inevitable that the result
       would be a complex and fragmented system.

   It is unlikely that Congress would proceed along a different path today, considering the
complexity of issues and the elaborate structure of existing congressional committees.

    Note that EPA has been tremendously successful despite its current organizational
framework. For example, EPA has succeeded in reducing by more than 54 percent the emissions
of six dangerous air pollutants that cause, among other things, smog, acid rain and lead
poisoning. In the vast majority of communities, EPA has met the goals for safe water set in the
1970s. More recently, EPA has aggressively and in a coordinated fashion proceeded to address
climate change, possibly the most pressing and complex environmental issue of our time. Any
discussion of the need for a new national environmental policy should acknowledge the
successes of the current framework.

    The draft report includes a lengthy list of stakeholders and challenges with which the
government would have to contend if a new national environmental policy were to be developed.
The sweeping recommendations of the draft report simply cannot be justified by relying on the
opinions of the small number of interviewees. I agree with former Administrator William D.
Ruckelshaus that such an effort would be a massive undertaking, and, in light of EPA’s
continued success in achieving its mission, the report is not persuasive that such an enormous
effort would be worthwhile or that theoretical efficiencies would be worth the massive
undertaking.




                                                 32 

                                                                                          10-P-0140


Reorganizing EPA Will Not Resolve the Problem of Stovepipes

    The draft report also suggests that EPA operates in a stovepipe manner consistent with its
media-specific statutory mandates. The report concludes that this results in a fragmented
approach to environmental problems, particularly because today's problems are more complex
than those dealt with when EPA was first organized.

    I agree that EPA is organized consistent with its congressional statutes, but I believe this
is entirely appropriate. Reorganizing the agency in some other manner to create more integration
across media would simply create new stovepipes of a different nature. Under any
organizational structure, EPA and the federal agencies must use matrix management. For
example, if organized by function as suggested in the draft report (e.g., separate offices for
standard-setting, monitoring, permitting, enforcement), there would have to be subunits within
each of the major programs to deal with specific media (a water subunit within the Enforcement
Office). Those subunits would then have to coordinate across the agency (all water subunits
within the various offices would have to coordinate standard setting, monitoring, permitting,
etc.). It is entirely possible that, if the agency had been structured along functional lines, we
would now be bemoaning the fragmented nature of water regulations.

    Your report explains that former Administrator Ruckelshaus did not change to a mission-
based organization because it would divert too much energy from performing the agency's
mandate. I believe this to be even truer today than it was shortly after EPA was formed. It is
also still true, as it was during the tenure of Douglas Costle as EPA Administrator, that existing
statutes impose complex restrictions to integration and centralization.

EPA, Other Federal Agencies, and Stakeholders are Already Coordinating on High-
Priority, Complex Issues

    EPA, other agencies, and stakeholders are coordinating on high-priority, complex issues.
The National Environmental Policy Act provides the statutory framework and mechanisms for
formal coordination on environmental projects undertaken with federal involvement. NEPA also
provides far-reaching authority to the Council on Environmental Quality to coordinate
environmental issues across the federal government, with states and stakeholders. Consequently,
the White House and the Council on Environmental Quality have selected high-priority issues on
which to focus coordination efforts. A sampling of these issues include:

1. Climate change and climate adaptation
2. Sustainable communities
3. Children's health
4. Ocean policy
5. Energy efficiency
6. Environmental science
7. Nanotechnology

    Efforts are also ongoing to ensure intra-agency coordination across media, such as the
frequent green cabinet meetings. EPA uses high-level, cross-agency councils and committees to



                                                33 

                                                                                         10-P-0140


address coordination on topics such as science, environmental justice, Indian policy, agriculture,
international activities, performance management and information management. EPA has also
established operating procedures to guarantee cross-program engagement on rules and policies.
In addition, EPA establishes issue-specific initiatives as needed to deal with cross-media
concerns. For example, EPA recently launched a cross-program initiative on the regulation of
electric utilities. An initiative is also under way to better harmonize EPA's place-based
activities.

   All of these efforts are necessary to deal with the inevitable fragmentation that occurs in
any large organization. A new National Environmental Policy and Quadrennial Review will not
change the need for taking these approaches at various levels within EPA.

Conclusion

    EPA has had considerable success in achieving its mission, and I am confident that
success will continue in the future. The agency's mission is already guided by statements of
national policy and specific national objectives, as outlined in major existing environmental
statutes. As with any large organization, EPA must coordinate across disparate internal offices.
But these coordination issues would not disappear if the agency were reorganized along different
lines. Creating a new National Environmental Policy and Quadrennial Review framework would
require a large investment of time and resources but is not likely to substantially improve our
environmental results. My view is that improving our existing cross-program coordination
mechanisms will continue to yield benefits.

                                             Bob Perciasepe
Attachment

cc: Administrator




                                                34 

                                                                              10-P-0140


                                                                            Appendix D

                                    Distribution

Office of the Administrator
Deputy Administrator
Assistant Administrators
Regional Administrators
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             35 

